CERTIFICATE OF SERVICE
JAMES M. BRANDEN, ESQ., pursuant to Title 28, United States
Code, section 1746, hereby declares under penalty of perjury:
That I am the attorney of record for Petitioner Wilbert Hayes.
That on July 25, 2020, in accordance with Rule 29.4(a) of the
Rules of the Supreme Court of the United States, I caused one copy
of the within Petition for a Writ of Certiorari with Appendices and
Motion to Proceed in Forma Pauperis by first-class mail to:
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
and to:
Monica J. Richards, Esq.
Assistant United States Attorney
Western District of New York
138 Delaware Avenue
Buffalo, NY 14202
I

declare under penalty of perjury under the

laws

of the

United States of America that the foregoing is true and correct.

Dated:

New York, New York
July 25, 2020

